Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




TEXAS DID NOT ALWAYS COMPLY
  WITH FEDERAL AND STATE
       REQUIREMENTS
FOR CLAIMS SUBMITTED FOR THE
  NONEMERGENCY MEDICAL
  TRANSPORTATION PROGRAM
  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                     October 2014
                                                     A-06-12-00053
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8M of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

 During fiscal year 2011, Texas claimed at least $30.3 million for unallowable Federal
 Medicaid payments for nonemergency medical transportation services.

WHY WE DID THIS REVIEW

Federal regulations require each State to ensure that Medicaid beneficiaries have necessary
transportation to and from medical providers. During Federal fiscal year (FY) 2011, the Texas
Health and Human Services Commission (State agency) claimed $135.6 million for payments to
nonemergency medical transportation (NEMT) providers. Prior Office of Inspector General
reviews have found that States’ claims for NEMT services were not always in accordance with
Federal and State requirements.

The objective of this review was to determine whether the State agency claimed Federal
Medicaid reimbursement for NEMT services claims submitted by transportation providers in
Texas in accordance with certain Federal and State requirements during FY 2011.

BACKGROUND

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the Medicaid program. Each State administers its Medicaid program in accordance
with a CMS-approved State plan. Although the State has considerable flexibility in designing
and operating its Medicaid program, it must comply with applicable Federal requirements.

Federal regulations require each State to ensure that Medicaid beneficiaries have transportation
to and from medical providers and to describe in its State plan the methods that the State will use
to meet this requirement. The regulations define transportation expenses as costs for
transportation that the State deems necessary to secure medical examinations and treatment for
beneficiaries.

HOW WE CONDUCTED THIS REVIEW

From the $82.6 million that the State agency claimed for Federal reimbursement in FY 2011 for
claims submitted by 3 providers, we reviewed a stratified random sample of 90 claims. We
limited our review to claims for demand-response services, which are transportation services that
use contractor-dispatched vehicles.

WHAT WE FOUND

During FY 2011, the State agency claimed Federal Medicaid reimbursement for some NEMT
services claims submitted by transportation providers that did not comply with certain Federal
and State requirements. Of the 90 NEMT claims in our sample, the State agency properly
claimed Medicaid reimbursement for 20 claims. However, the remaining 70 claims contained



Texas Nonemergency Medical Transportation Program (A-06-12-00053)                                 i
services that did not comply with certain Federal and State regulations. Of the 70 claims, 23
contained more than 1 deficiency:

   •   For 51 claims, the providers could not verify that the vehicle used for transportation on
       the date of service had current State registrations and inspections or could not identify the
       vehicle used for the transportation services.

   •   For 19 claims, providers transported children without a parent or legal guardian present.

   •   For 18 claims, transportation providers could not verify that they had completed Internet
       computerized criminal history file background checks, drug testing, and driver history
       checks on the drivers.

   •   For three claims, the beneficiary did not receive a Medicaid-covered health care service
       on the transportation date.

   •   For one claim, the beneficiary canceled the transportation request before receiving the
       service.

   •   For one claim, the provider could not provide documentation to support the NEMT
       services.

The claims for unallowable services were made because the State agency’s policies and
procedures for overseeing the Medicaid program did not ensure that providers complied with
Federal and State requirements for documenting and claiming NEMT services.

On the basis of our sample results, we estimated that the State agency improperly claimed at
least $30,385,925 in Federal Medicaid reimbursement for 980,561 NEMT claims during
FY 2011.

WHAT WE RECOMMEND

We recommend that the State agency (1) refund $30,385,925 to the Federal Government and
(2) strengthen its policies and procedures to ensure that providers:

   •   use vehicles that have current State registrations and inspections and be able to identify
       the vehicles used for the transportation services;

   •   do not transport children under the age of 15 without a parent or legal guardian present;

   •   complete driver requirements, including Internet computerized criminal history file
       background checks, drug testing, and driver history checks;

   •   provide transportation services only to beneficiaries receiving Medicaid-covered services;

   •   do not submit claims for canceled trips; and


Texas Nonemergency Medical Transportation Program (A-06-12-00053)                                   ii
   •   keep records that are necessary to document the services provided.


STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency described actions that it has taken or
will take to address our recommendations. For claims that we considered deficient, the State
agency said it plans to continue working with the transportation providers to obtain additional
support, which it will provide to CMS during the audit resolution process. In addition, the State
agency did not agree with our finding that 19 claims were ineligible for transportation services
because a minor was not accompanied by a parent, legal guardian, or authorized adult, but the
State agency did not produce any documentation to support its statement. As a result, we
maintain that the 19 claims were not eligible for reimbursement.




Texas Nonemergency Medical Transportation Program (A-06-12-00053)                               iii
                                                     TABLE OF CONTENTS


INTRODUCTION ...............................................................................................................1

           Why We Did This Review .......................................................................................1

           Objective ..................................................................................................................1

           Background ..............................................................................................................1
                 Medicaid Program……………….. ..............................................................1
                 Texas’ Nonemergency Medical Transportation Program ............................1
                 State Requirements ......................................................................................2

           How We Conducted This Review............................................................................3

FINDINGS ...........................................................................................................................3

           The State Agency Claimed Federal Reimbursement for Unallowable Claims........4
                  Vehicles Did Not Meet State Requirements for Registration and
                    Inspection, or Vehicle Used Could Not Be Identified ..............................4
                  Transportation Services Provided to Children Without a
                    Parent or Legal Guardian Present .............................................................5
                  Providers Did Not Ensure That Driver Requirements Were Met ................5
                  Beneficiaries Did Not Receive a Medicaid-Covered Service on the
                    Date of Transportation ..............................................................................6
                  A Beneficiary Did Not Receive a Transportation Service ...........................6
                  A Provider Did Not Document a Transportation Service ............................6

RECOMMENDATIONS .....................................................................................................7

STATE AGENCY COMMENTS ........................................................................................7

OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................................7

APPENDIXES

           A: Related Office of Inspector General Reports .....................................................9

           B: Audit Scope and Methodology.........................................................................10

           C: Statistical Sampling Methodology ...................................................................12

           D: Sample Results and Estimates .........................................................................13




Texas Nonemergency Medical Transportation Program (A-06-12-00053)                                                                          iv
       E: Federal and State Regulations for
          Nonemergency Medical Transportation ..........................................................14

       F: Summary of Deficiencies for Each Sampled Claim .........................................15

       G: State Agency Comments ..................................................................................17




Texas Nonemergency Medical Transportation Program (A-06-12-00053)                                                      v
                                         INTRODUCTION

WHY WE DID THIS REVIEW

Federal regulations require each State to ensure that Medicaid beneficiaries have necessary
transportation to and from medical providers (42 CFR § 431.53). During Federal fiscal year (FY)
2011, the Texas Health and Human Services Commission (State agency) claimed $135.6 million
for payments to nonemergency medical transportation (NEMT) providers. Prior Office of
Inspector General reviews have found that States’ claims for NEMT services were not always in
accordance with Federal and State requirements. Appendix A lists Office of Inspector General
reports related to NEMT.

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal Medicaid
reimbursement for NEMT services claims submitted by transportation providers in Texas in
accordance with certain Federal and State requirements during FY 2011.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the Medicaid program. Each State administers its Medicaid program in accordance
with a CMS-approved State plan. Although the State has considerable flexibility in designing
and operating its Medicaid program, it must comply with applicable Federal requirements.

Federal regulations require each State to ensure that Medicaid beneficiaries have transportation
to and from medical providers and to describe in its State plan the methods that the State will use
to meet this requirement (42 CFR § 431.53). Federal regulations define transportation expenses
as costs for transportation that the State deems necessary to secure medical examinations and
treatment for beneficiaries (42 CFR § 440.170(a)(1)).

Texas’ Nonemergency Medical Transportation Program

In Texas, the State agency administers the NEMT program. This program provides
transportation to eligible Medicaid beneficiaries and other eligible recipients. Participants are
eligible to receive transportation when no other means of transportation is available and a
medical necessity exists.

The State agency contracts with NEMT service providers for each of the 24 transportation
service areas, which cover all of the State’s 254 counties. The State agency receives requests for
transportation and documents them in a travel manifest. Data elements recorded on the manifest
include: the beneficiary’s name, the pickup and destination addresses, and whether an attendant
is authorized for the trip. Each day, providers download the approved travel manifests from the


Texas Nonemergency Medical Transportation Program (A-06-12-00053)                                   1
State agency’s automated system. The State agency’s contracts with providers establish
payments for each leg of a trip associated with the medical transportation service and include
additional reimbursement for authorized attendants. 1

State Requirements

The NEMT program includes “reasonable transportation of a prior authorized [Medical
Transportation Program] recipient to and/or from a prior authorized health care facility where
health care needs will be met” (TAC § 380.203(1)). The NEMT program does not cover
“transportation of individuals to services which are not covered by the applicable state or federal
medical assistance program under which the recipient qualifies” (TAC § 380.209(3)).

The State plan requires that transportation providers that bill NEMT services as administrative
services, which include each of the three providers in our review, comply with applicable Federal
and State rules and regulations and fulfill all the terms of the transportation contract. 2
Transportation brokers that bill services as an optional medical service must also fulfill the terms
of the transportation contract. 3

The transportation contracts between the State agency and the providers require the providers to
conduct criminal background checks on drivers before they begin providing transportation
services and annually thereafter. Specifically, each contract requires an Internet computerized
criminal history file background check. The checks are for felony and misdemeanor convictions
for the 7 years before the hire date. The contracts also require providers to obtain and document
annually each driver’s history of moving violations and citations.

In addition, the contracts require providers to develop, implement, and maintain an annual
inspection process to verify that all vehicles meet applicable Federal, State, and local
ordinances. The providers must have procedures that at a minimum document and track
annual vehicle registration and inspection. Subcontractors must meet the same requirements as
the providers. Under the terms of the contract, providers assume responsibility for the
performance of all subcontractors and are held solely responsible and accountable for the
completion of all subcontracted work.




1
  An attendant is an adult or service animal that accompanies a priorly authorized beneficiary to provide necessary
mobility, personal, or language assistance to the recipient while the transportation and health care services are
provided (Texas Administrative Code (TAC), § 380.101(5)). Transportation for an attendant may be authorized if
the health care provider documents the need, the recipient is a minor, or a language or other barrier to
communication or mobility exists that necessitates such assistance (TAC § 380.203(3)).

2
    State Medicaid plan, Attachment 3.1-D, page 2.
3
    State Medicaid plan, Attachment 3.1-B, page 62.



Texas Nonemergency Medical Transportation Program (A-06-12-00053)                                                     2
HOW WE CONDUCTED THIS REVIEW

We selected for review three providers with a high volume of claims for demand-response
services. 4 In total, the three providers submitted 1,332,474 claims totaling $82.6 million in
FY 2011. We reviewed a random sample of 90 claims. The 3 providers we reviewed serviced
10 of the 24 transportation service areas in the State. The $82.6 million claimed by the three
providers was 61 percent of the $135.6 million claimed for demand-response services in
FY 2011. For each claim, we obtained the travel manifest information from the State agency.
We obtained and reviewed documentation from each transportation provider to determine
whether the claim met certain Federal and State requirements.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains details of our audit scope and methodology, Appendix C contains details
on our statistical sampling methodology, Appendix D contains our sample results and estimates,
Appendix E contains details on the Federal and State requirements related to NEMT, and
Appendix F contains details on a summary of deficiencies for each sampled claim.

                                                   FINDINGS

During FY 2011, the State agency claimed Federal Medicaid reimbursement for some NEMT
services claims submitted by transportation providers that did not comply with certain Federal
and State requirements. Of the 90 NEMT claims in our random sample, the State agency
properly claimed Medicaid reimbursement for 20 claims. However, the remaining 70 contained
services that did not comply with Federal and State regulations. Of the 70 claims, 23 contained
more than 1 deficiency:

    •    For 51 claims, the providers could not verify that the vehicle used for transportation on
         the date of service had a current State registration and inspection or could not identify the
         vehicle used for the transportation services.

    •    For 19 claims, providers transported children without a parent or legal guardian present.

    •    For 18 claims, transportation providers could not verify that they had completed Internet
         computerized criminal history file background checks, drug testing, and driver history
         checks on the drivers.

    •    For three claims, the beneficiary did not receive a Medicaid-covered health care service
         on the transportation date.


4
  Demand-response claims are for transportation services that use contractor-dispatched vehicles in response to
requests for individual or shared one-way trips (TAC § 380.101(12)).


Texas Nonemergency Medical Transportation Program (A-06-12-00053)                                                 3
       •   For one claim, the beneficiary canceled the transportation request before receiving the
           service.

       •   For one claim, the provider could not provide documentation to support the NEMT
           services.

The claims for unallowable services were made because the State agency’s policies and
procedures for overseeing the Medicaid program did not ensure that providers complied with
Federal and State requirements for documenting and claiming NEMT services. On the basis of
our sample results, we estimated that the State agency improperly claimed at least $30,385,925
in Federal Medicaid reimbursement for 980,561 NEMT claims during FY 2011.

THE STATE AGENCY CLAIMED FEDERAL REIMBURSEMENT FOR
UNALLOWABLE CLAIMS

Vehicles Did Not Meet State Requirements for Registration and Inspection, or
Vehicle Used Could Not Be Identified

Transportation providers that bill NEMT services as administrative services must comply with
applicable Federal and State rules and regulations and fulfill all the terms of the transportation
contract. 5 The State agency’s contracts require each provider to ensure that vehicles used for
transporting recipients comply with all applicable State and Federal laws. 6 The contracts also
require the providers to track and document annual vehicle inspections and registrations. 7
Owners of vehicles must apply for registration within 30 days of moving to the State or
purchasing a vehicle and must reapply each year that the vehicle is used on a public highway. 8
In addition, motor vehicles that are more than 2 years old must be inspected annually. 9

For 51 claims, the providers could not verify that the vehicle used for transportation on the date
of service had a current State registration and inspection or could not identify the vehicle used
for the transportation services:

       •   For 21 of the 51claims, 10 providers could not verify that vehicles used for transportation
           services met State requirements. For 12 of these claims, the providers did not have
5
    State Medicaid plan, Attachment 3.1-B, page 62, and Attachment 3.1-D, page 2.

6
    Transportation services contracts, section 10.5.1.

7
    Transportation services contracts, section 10.5.5.

8
    Texas Transportation Code, § 502.002.

9
    Texas Transportation Code, § 548.101.

10
  We considered a claim unallowable if any part of the trip was unallowable. However, when we estimated the
unallowable amount in our statistical sample, we included fractional amounts for trips where applicable. For
example, if half of a claim was unallowable, we included only that amount. See Appendix F for claim details.



Texas Nonemergency Medical Transportation Program (A-06-12-00053)                                              4
            documentation of State vehicle registrations, and for 20 of these claims, the providers did
            not have State inspection certificates. 11

       •    For 30 of the 51 claims, a provider could not identify the vehicle used for the
            transportation services. The provider subcontracted its services and did not require the
            subcontractors to document the vehicles that the subcontractors used for each claim. The
            provider said that it had attempted to contact the subcontractors to obtain additional
            information but that they were either out of business or refused to provide the
            information. As a result, we were unable to determine whether vehicles met registration
            and inspection requirements.

Transportation Services Provided to Children Without a Parent or Legal Guardian
Present

State regulations do not allow a beneficiary to receive NEMT services if the beneficiary is under
age 18 unless he or she is accompanied by a parent or legal guardian. Exceptions are made for
minors who are 15 to 17 years old and who present a signed parental or legal guardian’s consent
(TAC § 380.207(4)).

The State agency claimed reimbursement for 19 claims for ineligible transportation services. For
each of the 19 claims, the recipient was a minor under age 15 and was not accompanied by a
parent or legal guardian. The provider did not have documentation of parent or legal guardian
authorization to allow another adult to accompany the minors. For 12 of the 19 claims, the
providers also claimed reimbursement for an attendant who was not a parent or legal guardian.

Providers Did Not Ensure That Driver Requirements Were Met

The transportation contracts between the State agency and the providers require that criminal
background checks be performed on drivers before they begin providing transportation services
and annually thereafter. Specifically, each contract requires an Internet computerized criminal
history file background check, which checks for felony and misdemeanor convictions during the
7 years before the hire date. The State agency’s contracts with the providers require the
providers to implement and maintain a drug and alcohol testing program in accordance with
49 CFR parts 40 and 655. 12 Federal regulations require providers to have their employees tested
for drugs before allowing them to perform safety-sensitive duties (49 CFR § 40.25). Also, the
transportation contracts require providers to obtain and document annually each driver’s history
of moving violations and citations. A driver with more than two moving violations in 1 year, on
or off the job, is not allowed to provide transportation services.

The State agency claimed reimbursement for 18 claims for transportation services that did not
meet 1 or more contract requirements:


11
  For 11 claims, the provider did not have documentation of both the State vehicle registration and the State
inspection certificates.
12
     Transportation services contracts, section 10.4.2.


Texas Nonemergency Medical Transportation Program (A-06-12-00053)                                               5
       •   For 15 claims, providers did not have documentation to verify that they had completed
           reviews of drivers’ driving records before the date of the transportation service.

       •   For 11 claims, providers did not have documentation to verify that they had completed
           required background checks of the drivers before the date of the transportation service.
           For 2 of these claims, the provider had handwritten results of criminal background checks
           but did not have evidence that it had performed an Internet computerized criminal history
           file background check.

       •   For 10 claims, providers did not have documentation to verify that drug testing had been
           completed on the drivers.

       •   For one claim, the driving record showed a driver had three moving violations in 1 year.

Beneficiaries Did Not Receive a Medicaid-Covered Service on the Date of Transportation

According to State regulations, an NEMT service is eligible for Medicaid payment when the
transportation service is essential for the beneficiary to obtain necessary medical care and when
that medical care is covered under the Medicaid program (TAC § 380.203).

The State agency claimed reimbursement for three transportation claims with dates of service for
beneficiaries who did not receive a Medicaid-covered health care service. For the three claims,
the State Medicaid Management Information System (MMIS) did not have claims data to verify
that a health care service was provided on the transportation date. For two of the claims, the
medical provider at the destination address confirmed that the beneficiary did not receive a
Medicaid-covered medical service on the date of transportation. For one of the claims, the
medical provider did not respond to our request for information.

A Beneficiary Did Not Receive a Transportation Service

The State Medicaid plan limits transportation to Medicaid beneficiaries being taken to and from
Medicaid-covered services. 13

For one claim, the provider requested payment and the State agency paid for a transportation
service the provider did not provide. The driver noted the cancellation in the driver’s log;
however, the provider did not reconcile the driver’s log with the approved client list before
submitting the claim.

A Provider Did Not Document a Transportation Service

State plans are required to “provide for agreements with every person or institution providing
services under which such person or institution agrees (A) to keep such records as are necessary
to fully disclose the extent of the services provided to individuals receiving assistance under the
State plan and (B) to furnish the State agency or the Secretary [of the U.S. Department of Health
13
     State Medicaid plan, Attachment 3.1-D, page 4.



Texas Nonemergency Medical Transportation Program (A-06-12-00053)                                     6
and Human Services] with such information … as the State agency or the Secretary may from
time to time request.” 14

For one claim, the provider did not provide any documentation related to the NEMT service.

                                               RECOMMENDATIONS

We recommend that the State agency (1) refund $30,385,925 to the Federal Government and
(2) strengthen its policies and procedures to ensure that providers:

       •   use vehicles that have current State registrations and inspections and be able to identify
           the vehicles used for the transportation services;

       •   do not transport children under the age of 15 without a parent or legal guardian present;

       •   complete driver requirements, including Internet computerized criminal history file
           background checks, drug testing, and driver history checks;

       •   provide transportation services only to beneficiaries receiving Medicaid-covered services;

       •   do not submit claims for canceled trips; and

       •   keep records that are necessary to document the services provided.

                                       STATE AGENCY COMMENTS

In written comments on our draft report, the State agency described actions that it has taken or
will take to address our recommendations. For claims that we considered deficient, the State
agency said that it has support or will continue its efforts to obtain additional support, which it
will provide to CMS during the audit resolution process. In addition, the State agency did not
agree with our finding that 19 claims were ineligible for transportation services because a minor
was not accompanied by a parent, legal guardian, or authorized adult. The State agency said that
we should reconsider this determination because the Texas law in effect during the audit period
allowed an authorized adult to accompany the child and because the State agency had a process
in place to verify the identity of the parent or legal guardian who authorized another adult to
accompany the child.

The State agency’s comments are included in their entirety as Appendix G.

                           OFFICE OF INSPECTOR GENERAL RESPONSE

Regarding the 19 claims that were ineligible for transportation services because a minor was not
accompanied by a parent or legal guardian, we requested documentation demonstrating that the
parent or legal guardian had authorized another adult to accompany the minor during

14
     The Social Security Act, § 1902(a)(27).


Texas Nonemergency Medical Transportation Program (A-06-12-00053)                                       7
transportation. The State agency was not able to produce any documentation of the
authorization. As a result, we maintain that the 19 claims were not eligible for reimbursement.




Texas Nonemergency Medical Transportation Program (A-06-12-00053)                                 8
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS


               Report Title                          Report Number    Date Issued
California Claimed Medicaid
Reimbursement for Some Nonemergency
Medical Transportation Services in Los                A-09-12-02083   6/24/2014
Angeles County That Did Not Comply
With Federal and State Requirements
Hawaii Claimed Unallowable Medicaid
Reimbursement for Nonemergency
                                                      A-09-11-02047   5/22/2012
Medical Transportation Services
Furnished by Taxi Providers
Review of Medicaid Payments for
Nonemergency Medical Transportation
                                                      A-02-09-01024   2/13/2012
Services Claims Submitted by Providers in
New York State
Review of Medicaid Payments for
Nonemergency Medical Transportation
                                                      A-02-08-01017   11/30/2011
Services Claims Submitted by Providers in
New York City
Review of Costs Claimed by the State of
Nebraska for Non-Emergency Medical
                                                      A-07-10-04172   7/22/2011
Transportation Services Provided by
Shared Mobility Coach
Review of Nonemergency Medical
Transportation Costs in the State of Texas
(Transportation Provided by the League                A-06-09-00090   10/22/2010
of United Latin American Citizens—
Project Amistad)
Review of Nonemergency Medical
Transportation Costs in the State of Texas
                                                      A-06-08-00096   6/15/2010
(Transportation Provided by Capital Area
Rural Transit System)




Texas Nonemergency Medical Transportation Program (A-06-12-00053)                   9
                   APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

From the 1,332,474 claims for demand-response services for 3 high-volume providers totaling
$82.6 million that the State agency claimed for Federal reimbursement during FY 2011, we
reviewed a random sample of 90 claims. The 3 providers we reviewed serviced 10 of the 24
transportation service areas in the State. The $82.6 million claimed by the three providers was
61 percent of the $135.6 million claimed for demand-response services in FY 2011.

We did not assess the overall internal control structure of the State agency or the Medicaid
program. Rather, we limited our review of internal controls to those applicable to the objective
of our audit. In addition, the scope of our audit did not require us to review the medical
necessity of the transportation services.

We conducted fieldwork from October 2012 through October 2013 at the State agency’s offices
in Austin, Texas, and at the business offices of three transportation providers in the Texas cities
of Edinburg, Houston, and Jasper.

METHODOLOGY

To accomplish our objective, we:

   •   reviewed Federal and State laws and regulations related to Medicaid transportation
       services;

   •   reviewed contracts between the State agency and selected providers;

   •   interviewed State agency officials regarding beneficiaries’ eligibility for transportation
       services, prior authorization and scheduling of services, and the claims verification and
       monitoring process;

   •   reconciled the State agency’s claim for transportation services on the Quarterly Medicaid
       Statement of Expenditures for the Medical Assistance Program (CMS-64 report) with
       supporting documentation for the quarter ending September 30, 2011;

   •   interviewed providers regarding policies and procedures used to record, modify, cancel,
       audit, and claim transportation services;

   •   selected a random sample of 90 claims (Appendix C) for transportation services
       submitted by 3 providers for which we:

           o obtained the travel manifest information from the State agency;

           o reviewed the providers’ documentation on the beneficiary, origination and
             destination addresses, prior authorizations, and the driver and vehicle used;


Texas Nonemergency Medical Transportation Program (A-06-12-00053)                                   10
           o reviewed the payments to providers to determine whether the rates paid were in
             accordance with the contract for the type of service, the number of passengers,
             and the number of 1-way trips provided;

           o reviewed the providers’ documentation for the drivers’ criminal background
             checks to determine whether the drivers had a criminal history, as defined under
             the contract with the State agency;

           o reviewed the providers’ documentation for the drivers’ drug tests;

           o reviewed the providers’ documentation of drivers’ moving violation records;

           o reviewed the providers’ documentation of State vehicle registrations and annual
             State inspections to determine whether each vehicle had a current registration and
             inspection at the time of the transportation service;

           o reviewed the State agency’s and the providers’ documentation to determine
             whether underage riders were accompanied to their medical services by a parent
             or legal guardian;

           o analyzed claims data from the State MMIS to help determine whether each
             beneficiary obtained a Medicaid-covered health care service on the date of the
             transportation service; and

           o requested that Medical providers confirm that they provided a Medicaid-covered
             service to those beneficiaries who did not have a Medicaid claim documented in
             the MMIS on the date of the transportation service;

   •   used the results of the sample to estimate the unallowable Federal Medicaid
       reimbursement (Appendix D); and

   •   discussed our results with the State agency on May 29, 2014.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Texas Nonemergency Medical Transportation Program (A-06-12-00053)                               11
                APPENDIX C: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of 2,185,639 Medicaid claims for contractor demand-response services
totaling $135.6 million claimed for Federal reimbursement during FY 2011.

SAMPLING FRAME

The sampling frame consisted of 1,332,474 claims paid to 3 providers totaling $82,579,602.

SAMPLE UNIT

The sample unit was an individual Medicaid claim for transportation services paid by the State
NEMT program.

SAMPLE DESIGN

We used a stratified random sample. We divided the sampling frame into three strata, one for
each provider.

SAMPLE SIZE

We selected a sample size of 90 paid Medicaid claims, 30 per stratum.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services, statistical software to
generate the random numbers.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in each stratum. After generating 30 random
numbers for each stratum, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the Office of Inspector General, Office of Audit Services, statistical software to
appraise the sample results. We estimated the total number of unallowable claims and the value
of overpayments at the lower limit of the 90-percent confidence interval.




Texas Nonemergency Medical Transportation Program (A-06-12-00053)                                12
                            APPENDIX D: SAMPLE RESULTS AND ESTIMATES

                                                 Table 1: Sample Results

                                                                                              Value of
                                                                                             Unallowable
                                                                 Value of        Number of    Sampled
                    Sampling                                      Sample         Unallowable   Claims
                     Frame     Value of   Sample                 (Federal         Sampled     (Federal
     Stratum           Size    Frame 15    Size                   Share)           Claims      Share)
        1             513,223 $31,771,745   30                      $1,110           30        $1,110
        2             152,885 12,727,973    30                       1,294           19           624
        3             666,366 38,079,884    30                         934           21           601
      Total         1,332,474 $82,579,602   90                      $3,338           70        $2,335

                           Table 2: Estimates of Unallowable Claims (Federal Share)
                            (Limits Calculated for a 90-Percent Confidence Interval)

                                        Number of                       Value of
                                    Unallowable Claims                Overpayments
             Point estimate              1,076,506                     $35,521,321
              Lower limit                  980,561                      30,385,925
              Upper limit                1,172,452                      40,656,716




15
     We did not determine the Federal share for the value of the sample frame.


Texas Nonemergency Medical Transportation Program (A-06-12-00053)                                      13
                   APPENDIX E: FEDERAL AND STATE REGULATIONS FOR
                      NONEMERGENCY MEDICAL TRANSPORTATION

FEDERAL REGULATIONS

According to section 1902(a)(27) of the Social Security Act, a State plan must require that
providers of services maintain records to fully disclose the extent of services provided to
Medicaid beneficiaries.

Each State is required to ensure necessary transportation for Medicaid beneficiaries to and from
providers and to describe in its State plan the methods that the State will use to meet this
requirement (42 CFR § 431.53).

Transportation includes expenses for transportation and related expenses determined to be
necessary by the State Medicaid agency to secure medical examinations and treatment for a
beneficiary (42 CFR § 440.170).

STATE REGULATIONS

The State Medicaid plan states that providers that provide medical transportation services as
administrative services must comply with applicable Federal and State rules and regulations and
fulfill all the terms of the transportation contract (State Medicaid plan, Attachment 3.1-D).

Texas Administrative Code

Beneficiaries under the age of 18 are not eligible for NEMT services unless they are
accompanied by a parent or legal guardian. Exceptions are made for minors who are 15 to 17
years old and who present a signed parental or legal guardian’s consent (TAC § 380.207(4)).

An NEMT service is eligible for Medicaid payment when the transportation service is essential
for the beneficiary to obtain necessary medical care and the service may be paid for under the
Medicaid program (TAC § 380.201).

The transportation program includes “reasonable transportation of a prior authorized [NEMT]
recipient to and/or from a prior authorized health care facility where health care needs will be
met” (TAC § 380.203).

The transportation program does not cover “transportation of individuals to services which are
not covered by the applicable state or federal medical assistance program under which the
recipient qualifies” (TAC § 380.209).




Texas Nonemergency Medical Transportation Program (A-06-12-00053)                                  14
    APPENDIX F: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED CLAIM
      Table 3: Office of Inspector General Review Determinations for Sampled Claims
                                 Description of Deficiencies
               Provider lacked current vehicle registration or inspection, or both, or could not identify
         1
               vehicle
         2     Transportation service was ineligible
         3     Driver eligibility requirements not met
         4     Medicaid-eligible medical service was not provided
         5     Beneficiary did not receive transportation service
         6     Provider did not document transportation service

                                                                                                                No. of
Sample Claim    Deficiency 1      Deficiency 2    Deficiency 3   Deficiency 4   Deficiency 5   Deficiency 6   Deficiencies
    1               X                                                                                              1
    2               X                                                                                              1
    3               X                                 X                                                            2
    4               X                                                X                                             2
    5               X                                 X                                                            2
    6               X                                 X                                                            2
    7               X                                                                                              1
    8               X                                                                              X               2
    9               X                                                                                              1
    10              X                                 X                                                            2
    11              X                                                                                              1
    12              X                                 X                                                            2
    13              X                                 X                                                            2
    14              X                                 X                                                            2
    15              X                                                                                              1
    16              X                                 X                                                            2
    17              X                                 X                                                            2
    18              X                                                                                              1
    19              X                                 X                                                            2
    20              X                                 X                                                            2
    21              X                                                                                              1
    22              X                                                                                              1
    23              X                                 X                                                            2
    24              X                                                                                              1
    25              X                                                                                              1
    26              X                                                X                                             2
    27              X                                                                                              1
    28              X                                 X                                                            2
    29              X                                                                                              1
    30              X                                                                                              1
    31              X                                                                                              1
    32              X                                                                                              1
    33                                                                                                             0
    34              X                                                                                              1
    35              X                                                                                              1
    36                                                                                                             0
    37              X                                 X                                                            2
    38                                                X                                                            1
    39                                                                                                             0
    40              X                                                                                              1


Texas Nonemergency Medical Transportation Program (A-06-12-00053)                                                      15
                                                                                                            No. of
Sample Claim   Deficiency 1    Deficiency 2   Deficiency 3   Deficiency 4   Deficiency 5   Deficiency 6   Deficiencies
    41             X                              X                                                            2
    42             X                                                                                           1
    43                                                                                                         0
    44                                                                                                         0
    45                                                                                                         0
    46                                                                                                         0
    47             X                                                                                           1
    48             X                                                                                           1
    49                                                                          X                              1
    50             X                              X                                                            2
    51                                            X                                                            1
    52             X                                                                                           1
    53             X                                                                                           1
    54                                                           X                                             1
    55                                                                                                         0
    56             X                                                                                           1
    57             X                                                                                           1
    58                                                                                                         0
    59                                                                                                         0
    60                                                                                                         0
    61                             X                                                                           1
    62             X               X                                                                           2
    63                             X                                                                           1
    64                                                                                                         0
    65             X               X                                                                           2
    66                             X                                                                           1
    67             X                                                                                           1
    68                             X                                                                           1
    69                             X                                                                           1
    70                             X                                                                           1
    71                             X                                                                           1
    72                                                                                                         0
    73                             X                                                                           1
    74                             X                                                                           1
    75                             X                                                                           1
    76                                                                                                         0
    77                                                                                                         0
    78                             X                                                                           1
    79                                                                                                         0
    80                             X                                                                           1
    81             X               X                                                                           2
    82                             X                                                                           1
    83                                                                                                         0
    84                                                                                                         0
    85             X                                                                                           1
    86                                                                                                         0
    87                             X                                                                           1
    88                             X                                                                           1
    89             X               X                                                                           2
    90                                                                                                         0
 Category
                   51              19             18              3              1              1             93
  Totals
70 Claims With Deficiencies

Texas Nonemergency Medical Transportation Program (A-06-12-00053)                                                  16
                           APPENDIX G: STATE AGENCY COMMENTS 





                               TEXAS HEALTH AND HUMAN SERVICES COMMISSION



                                                                                                             KYLE L. J ANEK, M. D.
                                                                                                            EXECUTIVE COMMISSIONER




                                                             August 1, 2014



            Ms. Patricia Wheeler
            Regional Inspector General for Audit Services
            Office of Inspector General, Office ofAudit Services
            1100 Commerce, Room 632
            Dallas, Texas 75242

            Reference Report Number A-06-12-00053

            Dear Ms. Wheeler:

            The Texas Health and Human Services Commission (HHSC) received a draft audit report
            entitled "Texas Did Not Always Comply With Federal and State Requirements for Claims
            Submitted for the Nonemergency Medical Transportation Program" from the Department of
            Health and Human Services Office of Inspector General. The cover letter, dated June 16, 2014,
            requested that HHSC provide written comments, including the status of actions taken or planned
            in response to report recommendations.

            I appreciate the opportunity to respond. Please find the attached HHSC management response
            which (a) includes comments related to the content ofthe findings and recommendations and (b)
            details actions HHSC has completed or planned.

            If you have any questions or require additional information, please contact David Griffith,
            Director of HHS Risk and Compliance Management. Mr. Griffith may be reached by telephone
            at (512) 424-6998 or by e-mail at David.Griffith@hhsc.state.tx.us.

            Sincerely,

            }~
            Kyle L. Janek, M.D.




             P. 0. Box 13247   •   Austin, Texas 78711   •    4900 North Lamar, Austin, Texas   78751   •    (5 12) 424-6500




Texas Non emergency M edical Transportation Program (A-06-12-00053)                                                                  17
                                   Texas Health and Human Services Commission 

                                           Management Response to the 

                  U.S. Department ofHealth and Human Services Office ofinspector General Report: 


                    Texas Did Not Always Comply With Federal and State Requirements for Claims
                          Submitted for the Nonemergency Medical Transportation Program


            DHHS - OIG Recommendation: We recommend that the State agency refund $30,385,925 to
            the Federal Government.

            HHSC Management Response:

                   Actions Planned:

                   HHSC will continue its efforts to obtain additional supporting documentation from
                   Nonemergency Medical Transportation (NEMT) program providers (Providers) and
                   alternative sources and will provide supporting documentation to the Centers for
                   Medicare and Medicaid Services (CMS) to clear as many remaining exceptions as
                   possible through the audit resolution process. Once these efforts are completed, HHSC
                   will coordinate with CMS to update the statistical extrapolation based on remaining
                   exceptions to calculate a revised overpayment amount and will refund the revised amount
                   to CMS .

                   Estimated Completion Date:         One year from the date of the final audit report

                   Title of Responsible Person:       Medical Transportation Program Director


            DHHS- OIG Recommendation: We recommend that the State agency take steps to ensure that
            providers use vehicles that have current State registrations and inspections and be able to
            identify the vehicle usedfor the transportation service.

            HHSC Management Response:

                   Actions Planned:

                   HHSC will continue to work with Providers to identify the vehicles associated with tested
                   claims and verify whether valid registrations and inspections were obtained for the audit
                   period. As part of this effort, HHSC is coordinating with the Texas Department of Motor
                   Vehicles to validate vehicle registrations and with the Texas Department of Public Safety
                   to validate vehicle inspections. HHSC will provide relevant supporting documentation to
                   CMS as part ofthe audit resolution process.

                   HHSC will instruct Providers to comply with contract requirements for retaining
                   documentation of vehicle registrations and inspections, including documentation of




Texas Nonemergency.Medical Transportation Progrcon (A.-06-12-00053)                                            18
            HHSC Management Response- Nonemergency Medical Transportation
            August 1, 2014
            Page 2


                   vehicle registrations and inspections for vehicles used by Provider subcontractors and
                   enforce compliance with these requirements through on-site monitoring visits conducted
                   by the Medical Transportation Program.

                   Estimated Completion Date:            One year from the date ofthe final audit report

                   Title of Responsible Person:          Medical Transportation Program Director


            DHHS- OIG Recomme ndation: We recommend that the State agency take steps to ensure that
            providers do not transport children under the age of 15 without a parent or legal guardian
            present.

            HHSC Management Response:

            During the period of time that was audited, Texas had conflicting guidance in effect on who
            could accompany a child to a medical Provider visit.

            An HHSC administrative rule for the Medical Transportation Program, 1 Texas Administrative
            Code§ 380.207 (2010), indicated that medical transportation clients under age 18 who were not
            accompanied by a parent or legal guardian were not eligible for medical transportation services,
            unless one of two exceptions applied. First, a client aged 15 through 17 years of age could
            present the parent's or legal guardian's signed written consent for the transportation services to
            the regional Medical Transportation Program office or the transportation contractor. Second, the
            minor client could be transported to a treatment without a parent or legal guardian when the law
            extended confidentiality to that treatment. The rule did not contain an exception to allow an
            adult who was not the client's parent or legal guardian to accompany the client and did not
            include any exception for a client who was not at least IS years old.

            A more permissive accompaniment requirement, contained in Texas Human Resources Code §
            32.024(s)(2), was also in effect during the audit period and included an exception that allowed an
            adult who was not the parent or legal guardian to accompany the client. Specifically, Texas
            Human Resources Code § 32.024(s)(2) stated that a child younger than 15 years of age must be
            accompanied at a Medicaid visit or screening by (1) a parent or guardian or (2) "another adult,
            including an adult related to the child, authorized by the child's parent or guardian to accompany
            the child." As confirmed by a Texas court in 2012, this statute takes precedence over 1 Texas
            Administrative Code§ 380.207 (2010). 1

            1
              In a lawsuit brought by therapy providers and clients, Texas courts fou nd that HHSC's administrative
            rule (1 Texas Administrative Code§ 380.207, as effective from September 13,2004, to December 31,
            2012) conflicted with the more pennissive accompaniment requirement in Texas Human Resources Code
            § 32.024(sX2).




Texas Nonemergency.Medical Transportation Progrcon (A.-06-12-00053)                                                   19
            HHSC Management Response - Nonemergency Medical Transportation
            August 1, 2014
            Page3



            Medical Transportation Program processes in place during the audit period required that a parent
            or legal guardian of a client under the age of 18 designate an attendant for that client. Medical
            Transportation Program call center staff were required to {I) ask a caller to identify their
            relationship to the client and (2) further establish a caller' s identity by obtaining certain
            information such as the client's name, social security number, and address. The information was
            then verified against the information contained in the client's eligibility record. Once the caller's
            identity and relationship as the client' s parent or legal guardian was established, call center staff
            considered a statement by the caller authorizing another adult to accompany the child as valid
            authorization by the parent or guardian for another adult to accompany the child. Information
            provided by the parent or legal guardian, including the authorized adult's name, was documented
            in the Medical Transportation Program authorization system, meeting the conditions of the
            exception contained in T exas Human Resources Code§ 32.024(s)(2).

            The auditors classified 19 claims as " ineligible transportation services" because the minor was
            not accompanied by a parent or legal guardian. HHSC requests that the Office of Inspector
            General reconsider this determination, based on (I) the state law in effect during the audit period
            that allowed an adult authorized by the child's parent or guardian to accompany the child and (2)
            the Medical Transportation Program processes that were in place to verify the identity of the
            parent or legal guardian who authorized another adult to accompany the child.

            On January 1, 2013 , subsequent to the end of the period audited, HHSC's administrative rule
            changed and now permits, under certain circumstances, a child to be transported without a parent
            or legal guardian present. Under 1 Texas Administrative Code § 380.207 and I Texas
            Administrative Code § 354.1133, a child's parent or legal guardian may authorize another adult,
            not affiliated with a Provider, to accompany the child. This change brought HHSC's
            administrative rule into alignment with the Texas Human Resource Code cited above.

            HHSC enforces this updated requirement with a new protocol. This protocol requires a parent or
            legal guardian, who calls to schedule transportation services for their child under 15 years of age,
            to advise call center staff who will be accompanying the child on the trip. If someone other than
            the parent or legal guardian is accompanying the child, the parent or legal guardian must identify
            the authorized adult, and call center staff must document the authorized adult in the appropriate
            record.    The Texas Medical Transportation System automatically generates a parent
            authorization form and forwards that form to the parent or legal guardian for signature. The


            As a result ofthe suit, from May 3, 2012 through October 24, 20 13, the courts enjoined HHSC from
            enforcing 1 Texas Administrative Code § 380.207. Specifically, the court enjoined HHSC from denying
            eligibility ofa Medicaid client under the age of 18 for medical transportation services when a parent or
            guardian did not accompany the Medicaid client during the provision ofsuch transportation services, but
            the Medicaid client' s parent or guardian authorized another adult to accompany the child.




Texas Nonemergency.Medical Transportation Progrcon (A.-06-12-00053)                                                    20
            HHSC Management Response - Nonemergency Medical Transportation
            August 1, 2014
            Page4


            parent or legal guardian may mail or fax the form to the Medicaid Claims Administrator or may
            present the form to the transportation provider at pick up. At the time of the transportation
            service, the authorized adult is required to present proper identification to the driver, and the
            name must match information identified on the Provider's trip manifest. Medical Transportation
            Program monitoring reviews are conducted on transportation services for children under the age
            of 15 to ensure appropriate documentation is on file to support the delivery of transportation
            services.

                   Estimated Completion Date:         Fully Implemented

                   Title of Responsible Person:        Medical Transportation Program Director


            DHHS - OIG Recommendation: We recommend that the State agency take steps to ensure that
            providers complete driver requirements, including Internet computerized criminal history file
            background checks, drug testing, and driver history checks.

            HHSC Management Response:

                   Actions Planned:

                   HHSC will continue to work with Providers to determine whether additional
                   documentation exists to demonstrate that driving records were reviewed, background
                   checks were performed, and drug testing was performed before the dates of transportation
                   services reviewed as part of the audit. HHSC will provide any additional documentation
                   it obtains to CMS as part of the audit resolution process.

                   HHSC will instruct Providers to comply with contract requirements for performing and
                   documenting driving records reviews, background checks, and drug testing and will
                   enforce compliance with these requirements through on-site monitoring visits conducted
                   by the Medical Transportation Program.

                   Estimated Completion Date:          One year from the date of the final audit report

                   Title ofResponsible Person:         Medical Transportation Program Director




Texas Nonemergency.Medical Transportation Progrcon (A.-06-12-00053)                                             21
            HHSC Management Response - Nonemergency Medical Transportation
            August 1, 2014
            Page 5


            DHH S - OIG Recommendation : We recommend that the State agency take steps to ensure that
            providers provide transportation services only to beneficiaries receiving Medicaid-covered
            services.

            HHSC Management Response:

            The report notes that HHSC claimed reimbursement for three transportation claims with dates of
            service for beneficiaries who did not receive a Medicaid-covered health care service because
            there was no Medicaid claim on the same day of service as the transportation claim.

            In 2013, subsequent to the end of the period audited, the Medical Transportation Program
            worked collaboratively with the Medicaid Claims Administrator to establish a protocol for
            matching transportation claims with a Medicaid-covered healthcare service. CMS accepted the
            results of this protocol to remove a $17 million deferral against HHSC. HHSC now routinely
            uses the protocol, and CMS relies upon the protocol to validate that transportation services
            claims are associated with a Medicaid-covered service.

            Applying the current protocol to the three disallowed claims, the Medicaid Claims Administrator
            was able to locate a corresponding Medicaid-covered healthcare service for each transportation
            claim.

            For two of the claims, the transportation claim matched a corresponding medical claim with a
            date of service different than the date of transportation. This situation occurs when, for example,
            a client is required to travel out of town to obtain a medical service not available in his or her
            area. When the healthcare service is billed, the date of service on the claim would be the date the
            client was seen by the medical provider, which is not always-as in these two instances-the
            date transportation was provided.

            For the other claim, the transportation service was provided on one day of a multi-day medical
            claim. An example of this type of claim is when a medical transportation service was provided
            on a Wednesday, and the corresponding medical claim reflected services rendered by a provider
            beginning on Monday and extending through Friday ofthe same week.

            HHSC will provide specific details of the circumstances related to each of the three
            transportation claims and the associated medical claims to CMS during the audit resolution
            process.

                   Estimated Completion Date:           One year from the date ofthe final audit report

                   Title ofR esponsible P erson:        Medical Transportation Program Director




Texas Nonemergency.Medical Transportation Progrcon (A.-06-12-00053)                                               22
            HHSC Management Response - Nonemergency Medical Transportation
            August 1, 2014
            Page 6


            DHHS- OIG Recommendation: We recommend that the State agency take steps to ensure that
            providers do not submit claims for canceled trips.

            HHSC Management Response:

            HHSC has reminded Providers to comply with contract requirements that do not permit
            payments to Providers for canceled trips.        Processes, including periodic matching of
            transportation claims to medical claims and on-site monitoring reviews conducted by the
            Medical Transportation Program, help enforce this requirement by detecting improper claims.

                  Estimated Completion Date:        Fully Implemented

                  Title of Responsible Person:      Medical Transportation Program Director


            DHHS - OIG Recommendation: We recommend that the State agency take steps to ensure that
            providers keep records that are necessary to document the services provided.

            HHSC Management Response:

            HHSC has reminded Providers to comply with contract requirements (based on Texas's records
            retention requirements) that require Providers to maintain documentation supporting
            transportation services. On-site monitoring visits conducted by the Medical Transportation
            Program include steps to verify Providers comply with documentation requirements.

                  Estimated Completion Date:        Fully Implemented

                   Title of Responsible Person:     Medical Transportation Program Director




Texas Nonemergency.Medical Transportation Progrcon (A.-06-12-00053)                                       23
